CREDIT CARD ACCOUNT AGREEMENT AND FEDERAL
TRUTH-IN-LENDING DISCLOSURE STATEMENTS
THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH -IN-LENDING
DISCLOSURE STATEMENTS, PLATINUM PRIME VISA, SAVINGS SECURED VISA, AND CASH BACK VISA
AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR PLATINUM PRIME VISA, SAVINGS
SECURED VISA, AND CASH BACK VISA CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE
BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR .

PO Box 4044
Beaverton, OR 97076-4044
(503) 626-6600 • Fax: (503) 350-0126

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

_________%

Cash Back VISA:
After that this APR will vary with the market based on the Prime Rate.

_________%

Platinum Prime VISA:
After that this APR will vary with the market based on the Prime Rate.
Savings Secured VISA:
APR for Balance Transfers

_________%

Cash Back VISA: _________%
After that this APR will vary with the market based on the Prime Rate.
Platinum Prime VISA: _________%
After that this APR will vary with the market based on the Prime Rate.
Savings Secured VISA: _________%

APR for Cash Advances

Cash Back VISA: _________%
After that this APR will vary with the market based on the Prime Rate.
Platinum Prime VISA: _________%
After that this APR will vary with the market based on the Prime Rate.
Savings Secured VISA: _________%

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge You
interest on purchases if You pay Your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
 Foreign Transaction Fee

1.00% of each transaction in U.S. Dollars.

Penalty Fees
 Returned Payment
 Late Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Agreement.

Copyright Oak Tree Business Systems, Inc., 2008-2020. All Rights Reserved.

Page 1 of 4

OTBS 016CC RMAR (1/20)

DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean RIVERMARK COMMUNITY CREDIT UNION. The words "Yo u" and "Your"
mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any Platinum Prime
VISA, Savings Secured VISA and Cash Back VISA Credit Card issued to You by Us and any duplicates or renewals. The word "Account" means the Platinum Prime VISA,
Savings Secured VISA and Cash Back VISA Credit Card Account established for You under this Agreement. “Convenience Checks” mean the special Account access
devices that We may provide for Your use from time to time.

Index

Margin

Daily
Periodic Rate
For Purchases

Cash Back VISA

___________

___________

___________

___________

Platinum Prime VISA

___________

___________

___________

___________

___________

___________
ANNUAL
PERCENTAGE RATE
For Balance Transfers

Variable Rate
Credit Card

Savings Secured VISA

ANNUAL
PERCENTAGE RATE
For Purchases

Index

Margin

Daily
Periodic Rate
For Balance Transfers

Cash Back VISA

___________

___________

___________

___________

Platinum Prime VISA

___________

___________

___________

___________

___________

___________
ANNUAL
PERCENTAGE RATE
For Cash Advances

Variable Rate
Credit Card

Savings Secured VISA

Index

Margin

Daily
Periodic Rate
For Cash Advances

Cash Back VISA

___________

___________

___________

___________

Platinum Prime VISA

___________

___________

___________

___________

___________

___________

Variable Rate
Credit Card

Savings Secured VISA

PROMISE TO PAY. You understand that the following terms and conditions found
herein constitute Our Agreement with You. You may request advances on Your
Account through a variety of means which could include (but may not be limited to)
telephonic requests, Convenience Checks, Credit Cards and the like. Regardless of
the means by which any advance is made, You promise to pay Us all amounts
charged to Your Account by You or by any user who has access to Your Account, with
actual, apparent or implied authority for use of Your Account, including Finance
Charges and other fees or charges described herein.
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.

CROSS-COLLATERAL AS SECURITY. Collateral (other than household goods
or any dwelling used as Your principal residence) given as security under this
Agreement or for any other loan You may have with Us will secure all amounts
You owe Us now and in the future if that status is reflected in the "Truth-inLending Disclosure" in any particular agreement evidencing such debt.
LIEN ON FUNDS DEPOSITED AS SECURITY. You acknowledge that You own any
certificates and/or funds pledged as security and that there are no other liens against
them other than Ours. You agree to perform all acts which are necessary to make Our
security interest in the certificates and/or funds being pledged enforceable.
VISA PURCHASE MONEY SECURITY. For all purchase money transactions made
with Your Card, to the extent permitted by law, You grant Us a security interest in all
such personal property purchased with such Card.
CONSENSUAL LIEN ON FUNDS DEPOSITED AS SECURITY. You grant and
consent to a lien on Your funds on deposit with Us (except for IRA and Keogh
accounts) and any dividends due or to become due to You from Us to the
extent You owe on any unpaid Credit Card. If such funds on deposit or
dividends due are owned jointly, Our right of set-off and Our consensual lien
extends to any amount owed to Us by any of the joint owners.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Savings Secured
VISA Credit Card, You agree to give Us a specific pledge of funds which will equal
Your credit limit. In the event that You default on Your Savings Secured VISA Credit
Card, We may apply these funds toward the repayment of any amount owed on such
Credit Card. You may cancel Your Savings Secured VISA Credit Card at any time by
paying any amounts owed on that Credit Card. To be certain that Your entire balance
Copyright Oak Tree Business Systems, Inc., 2008-2020. All Rights Reserved.

and all advances are paid, any funds pledged may not be available to You for 30 days
after You have cancelled and any outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for which
You are approved. Unless You are in default, the Credit Limits established for You will
generally be self-replenishing as You make payments. You will keep Your unpaid
balance within Your Credit Limit set by Us, and You will pay any amount over Your
Credit Limit on Our demand whether or not We authorize the advances which caused
You to exceed Your Credit Limit. Even if Your unpaid balance is less than Your Credit
Limit, You will have no credit available during any time that any aspect of Your Account
is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, individually and together, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand that
any such Account access device(s) will only be provided to the primary Borrower at
the address that We have on file for You. We may refuse to follow any instructions
which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Any partial payment or prepayment will
not delay Your next scheduled payment. All payments to Us must be in lawful
money of the United States. Except as required by law, We may apply payments in
an order of Our choosing. Any unpaid portion of the Finance Charge will be paid by
subsequent payments and will not be added to Your principal balance. You
understand that any delay in the repayment of Your unpaid balance will increase
Your periodic Finance Charges and any acceleration in the repayment of Your
unpaid balance will decrease Your periodic Finance Charges.
You agree to pay Your minimum monthly payment, which will be established at the
close of each billing cycle. The minimum monthly payment will be 2.00% of Your
outstanding balance or $20.00, whichever is greater, plus any amounts past due and
any overlimit amounts. If Your outstanding balance is less than $20.00, You agree to
pay the balance in full.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your savings or checking account.
FINANCE CHARGES. In the case of any transactions, the balances subject to the periodic
Finance Charge are the separate average daily transactions balances outstanding during

Page 2 of 4

OTBS 016CC RMAR (1/20)

the month (including new transactions) for purchases, cash advances and balance
transfers. To get each average daily balance, We take the beginning balance for purchases,
cash advances and balance transfers each day, add any new transactions for purchases,
cash advances and balance transfers (costs for debt cancellation coverage, debit
adjustments or other charges, such as collection expenses, as applicable) and subtract any
payments, credits and unpaid Finance Charges. This gives Us the daily balance(s) for
purchases, cash advances and balance transfers. Then, We add up the separate daily
balances for purchases, cash advances and balance transfers for the billing cycle and
divide them by the number of days in the billing cycle to arrive at the separate average daily
transactions balances for purchases, cash advances and balance transfers. The Finance
Charge for a billing cycle is computed by multiplying each average daily balance subject to
a Finance Charge by the applicable Daily Periodic Rate times the number of days in the
billing cycle, and the sum is the amount of the Finance Charge owed for the billing cycle
being accounted for.
Your due date is at least 25 days after the close of each billing cycle. You can avoid
Finance Charges on purchases by paying the full amount of the entire balance owed
each month by the payment due date. Otherwise, the new balance of purchases, and
subsequent purchases from the date they are posted to Your Account, will be subject
to a Finance Charge. Cash advances and balance transfers are always subject to a
Finance Charge from the later of the date they are posted to Your Account or from the
first day of the billing cycle in which the transaction is posted to Your Account.
VARIABLE RATE (EXCEPT SAVINGS SECURED VISA). Your Account is subject to a
Variable Rate that is based on the highest Prime Rate as published in The Wall Street
Journal in effect on the 15th day of each calendar month ("Index") plus Our Margin. The
Index plus the Margin equals the Interest Rate. Changes in the Index will cause changes
in the Interest Rate on the 1st day of the billing cycle that immediately follows a change
in the Index. Increases or decreases in the Interest Rate will cause like increases or
decreases in the Finance Charge and will affect the number of Your regularly scheduled
payments. Your Interest Rate will never exceed the maximum permitted by law, and will
apply to Your remaining principal balance.
OVERDRAFT PROTECTION. We may transfer funds in the amount necessary (or in
such increments as We may from time to time determine) to Your checking account by
an advance on Your Account, subject to this provision and any preference You have
indicated to Us for clearing any overdraft on Your checking account. Whether or not such
transfers occur will be controlled by this Agreement. In any event, You hold Us harmless
for any and all liability which might otherwise arise if the transfer does not occur.
Overdraft protection automatically ceases if this Agreement is ever cancelled or
terminated or Your Account is in default.
As disclosed to You previously, all owners of accounts owned jointly are liable for any
overdrafts that may occur on those accounts, regardless of whether or not a benefit
occurred and checks cashed against any such account are subject to collectability from
that account if returned unpaid. All of which means that if this overdraft protection
function is attached to an account owned jointly, then overdraft transfers will be made
even if You are not the party that caused the overdraft to occur in the first place.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing all
transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each month in which there is a debit or credit
balance or when a Finance Charge is imposed. We need not send You a statement if
We feel Your Account is uncollectible or if We have started collection proceedings
against You because You defaulted. EACH STATEMENT IS DEEMED TO BE A
CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING
ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience Check
You would exceed Your Credit Limit; (2) Your Convenience Check is post-dated. We
are not responsible, however, if any such Convenience Check is honored and, as a
result, any other Convenience Check is returned unpaid; (3) Your Convenience
Checks have been reported lost or stolen; (4) Your Convenience Check is not signed
by a Borrower under this Agreement; (5) Your Account has been cancelled or
terminated as provided for in this Agreement; (6) Your Convenience Check is written
for an amount less than the minimum required amount; and/or (7) Your Convenience
Check is payable to the Credit Union and represents payment on the Account that it
is drawn on. You may be able to stop payment of a Convenience Check by contacting
a Credit Union representative and following the directions that are provided.
DEFAULT. You will be in default if: (a) You do not make any payment when due; or (b)
You exceed Your Credit Limit; or (c) You fail to perform any obligation under this
Agreement, or any other agreement that You may have with Us; or (d) You should die,
become involved in any bankruptcy, receivership or custodial proceeding filed by or
against You; or (e) You have made a false or misleading statement in Your credit
application and/or in Your representations to Us while You owe money on Your Account;
or (f) A judgment or tax lien should be filed against You or any attachment or garnishment
should be issued against any of Your property or rights, specifically including anyone
starting an action or proceeding to seize any of Your funds on deposit with Us; and/or

Copyright Oak Tree Business Systems, Inc., 2008-2020. All Rights Reserved.

(g) We believe, in good faith, that Your ability to repay Your indebtedness hereunder is
or soon will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of Your Account immediately due and payable, without
prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection and
reasonable attorneys’ fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any other
payments, even if they are marked "paid in full" without losing any of Our rights under
this Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
DEBT PROTECTION. Debt protection is not required for any extension of credit
under this Agreement. However, You may purchase any debt protection available
through Us and have the costs added to Your outstanding balance. If You elect to
do so, You will be given the necessary disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper which is delivered
together with this Agreement or at a later date becomes an integrated part of this
Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device;
or by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may,
from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account at any time, whether or
not You are in default. You will, in any case, remain liable to pay any unpaid balances
according to the terms of Your Account.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement is
the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (800) 452-8502 or (503) 6266600, or by writing to Us at P.O. Box 4044, Beaverton, OR 97076-4044. In any case,
Your liability will not exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the

Page 3 of 4

OTBS 016CC RMAR (1/20)

Cards or Convenience Checks, or electronic terminals to honor the Cards or complete
a Card withdrawal, or for their retention of the Cards or Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the billing
currency (U.S. Dollars) will be: (a) a rate selected by VISA from the range of rates
available in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate VISA itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. For transactions
that are initiated in a foreign currency, You will be charged 1.00% of the final
settlement amount. For transactions occurring in foreign countries and initiated in U.S.
Dollars, You will be charged 1.00% of the final settlement amount.

You must contact Us:




Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:

TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advances, credit or other slips cannot be returned with the statement.

1)
2)

LATE CHARGE. If Your payment is more than ten days late, You will be charged
$25.00 or the amount of the minimum payment due, whichever is less.

Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) $25.00 for any check (or other negotiable instrument
used for payment) which is returned unpaid, or the required minimum payment
amount for the returned payment, whichever is less; (b) $5.00 for each replacement
Card You request; (c) $10.00 for each statement or sales draft copy that You
request; (d) $25.00 each time You request that We deliver an item on an expedited
basis; and (e) $65.00 each time You fail to return to Us any Cards that are in Your
possession after reporting a lost or stolen Card, or in the event We terminate Your
credit privileges.






We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us at (800) 452-8502 or (503) 6266600, or write to Us at P.O. Box 4044, Beaverton, OR 97076-4044.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold
and apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your savings
account after six months.
CONTACT METHODS. You understand and agree that to the extent permitted by
applicable law and as an express condition of Our providing the credit represented
by this Agreement, We may choose to contact You at any wireless, cellular, mobile
or other phone number that You provide or any other number We may obtain. You
further understand and agree that subject to applicable law, We may contact You
using any other means We choose, including but not limited to text messaging,
artificial or prerecorded voice messages and automatic dialing technology. Without
limitation, You agree to pay all costs that You may incur as a result of the contact
method We choose.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Oregon except to the extent that such laws are inconsistent with controlling
federal law.




If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:

1)

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

2)

What To Do If You Find A Mistake On Your Statement

3)
If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give Us the following information:





Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

Copyright Oak Tree Business Systems, Inc., 2008-2020. All Rights Reserved.

If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may then
report You as delinquent if You do not pay the amount We think You owe.

The purchase must have been made in Your home state or within 100 miles
of Your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if Your
purchase was based on an advertisement We mailed to You, or if We own the
company that sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At the point, if
We think You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016CC RMAR (1/20)

CASH BACK VISA

Interest Rates and Interest Charges

Annual Percentage Rate
(APR) for Purchases

10.00% - 20.50%
Your APR is based on your creditworthiness at the time you open your account. The
APR will vary based on the Prime Rate as published in The Wall Street Journal.

APR for Balance Transfers

10.00% - 20.50%

APR for Cash Advances

10.00% - 20.50%

Penalty APR

None

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date
each month.

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
•
Balance Transfer
•
Cash Advance
•
Foreign Transaction

None
None
1% of each transaction in U.S. dollars

Penalty Fees
•
Late Payment
•
Over-the-Credit Limit
•
Returned Payment

Up to $25 after ten days
None
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

PLATINUM PRIME

Interest Rates and Interest Charges

Annual Percentage Rate
(APR) for Purchases

5.40% - 16.40%
Your APR is based on your creditworthiness at the time you open your account. The
APR will vary based on the Prime Rate as published in The Wall Street Journal.

APR for Balance Transfers

5.40% - 16.40%

APR for Cash Advances

5.40% - 16.40%

Penalty APR

None

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date
each month.

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
•
Balance Transfer
•
Cash Advance
•
Foreign Transaction

None
None
1% of each transaction in U.S. dollars

Penalty Fees
•
Late Payment
•
Over-the-Credit Limit
•
Returned Payment

Up to $25 after ten days
None
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

SAVINGS SECURED PLATINUM VISA

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

10.90%

APR for Balance Transfers

10.90%

APR for Cash Advances

10.90%

Penalty APR

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We
will not charge you any interest on purchases if you pay your entire
balance by the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
•
Balance Transfer
•
Cash Advance
•
Foreign Transaction

None
None
1% of each transaction in U.S. dollars

Penalty Fees
•
Late Payment
•
Over-the-Credit Limit
•
Returned Payment

Up to $25 after ten days
None
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

